APPENDIX

United States v. Danny Veloz a/k/a Maestro, a/k/a Joil Rivera
No. 17-2136
948 F.3d 417 (1st Cir. Jan. 24, 2020)……………………………….…………App. 1
Memorandum and Order of Defendants’ Motions to Suppress
No. 12-cr-10264-RGS
109 F. Supp. 3d 305 (D. Mass. June 4, 2015)………………………..…….App. 12
Judgment (without Statement of Reasons)
No. 12-cr-10264-RGS (D. Mass. Nov. 17, 2017)…………………………...App. 20

United States v. Veloz
United States Court of Appeals for the First Circuit
January 24, 2020, Decided
No. 17-2136

Reporter
948 F.3d 418 *; 2020 U.S. App. LEXIS 2290 **; 111 Fed. R. Evid. Serv. (Callaghan) 464; 2020 WL 401801

UNITED STATES OF AMERICA, Appellee, v. DANNY
VELOZ, a/k/a MAESTRO, a/k/a JOIL RIVERA,
Defendant, Appellant.

statements was proper under Fed. R. Evid. 804(b)(3) as
the statements were not testimonial, and the statements
that allegedly fell outside the exception were not
included in the revised transcript.

Subsequent History: As Corrected January 28, 2020.
Outcome
Conviction affirmed.
Prior History: [**1] APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT OF
MASSACHUSETTS. Hon. Richard G. Stearns, U.S.
District Judge.
United States v. Veloz, 2017 U.S. Dist. LEXIS 112271
(D. Mass., July 19, 2017)
United States v. Veloz, 109 F. Supp. 3d 305, 2015 U.S.
Dist. LEXIS 72638 (D. Mass., June 4, 2015)

Case Summary

Counsel: Mark W. Shea, with whom Shea & LaRocque,
LLP was on brief, for appellant.
Mark T. Quinlivan, Assistant United States Attorney,
with whom Andrew E. Lelling, United States Attorney,
was on brief, for appellee.

Judges: Before Barron, Selya, and Boudin, Circuit
Judges.

Overview
HOLDINGS: [1]-A district court properly denied
defendant's motion suppress evidence law enforcement
seized from his apartment where the special agent's
affidavit accompanying the warrant application
supported the finding that a confidential informant's tip
was reliable; [2]-A motion for a Franks hearing was
properly denied where the reliable information provided
by the informant was so substantial that the omitted
information defendant pointed to was not material, and
the fact that the informant was a coconspirator did not
undermine the basis for probable cause; [3]-Admitting a
transcript of a recording of another coconspirator's

Opinion by: BARRON

Opinion
[*425] BARRON, Circuit Judge. Danny Veloz
challenges on various grounds his 2017 conviction for
conspiracy to commit kidnapping in violation of 18
U.S.C. § 1201(c), for which he received a prison

Appendix A

App. 1

United States v. Veloz
sentence of life. Finding no merit to his challenges, we
affirm.

I.
Veloz's conviction stems from his alleged role as the
mastermind of a Massachusetts-based scheme to
kidnap drug dealers and hold them for ransom. On July
23, 2012, a victim of the scheme, Manuel Amparo,
alerted law enforcement that he had just escaped from
having been kidnapped. Three men were initially
arrested in connection with that crime, one of whom,
Henry Maldonado, began cooperating with the
authorities.
Maldonado informed the authorities that Veloz was the
head of the kidnapping crew. Maldonado told them that
Veloz would attach GPS devices to the cars of potential
kidnapping [**2] victims in order to track their
movements. Once Veloz learned a victim's typical
driving routine, Maldonado also recounted, Veloz would
instruct his crew to abduct the victim and hold the victim
for ransom.
Further investigation revealed that Amparo had a GPS
device unknowingly attached to his car. The Federal
Bureau of Investigation ("FBI") then secured a warrant
to search Veloz's residence from a United States
magistrate judge. The search turned up, among other
things, computers and cell phones related to the
scheme.
The operative indictment was handed up on September
27, 2012, by a grand jury in the District of
Massachusetts. The indictment charged Veloz and six
co-defendants with conspiracy to commit kidnapping in
violation of 18 U.S.C. § 1201(c). Veloz's co-defendants
each pleaded guilty. Veloz chose to proceed to trial,
which commenced on August 7, 2017. The jury returned
a guilty verdict against Veloz on August 21, 2017, and
the District Court sentenced Veloz to life in prison on
November 17, 2017. That same day, Veloz timely filed a
notice of appeal.

II.
Veloz first challenges the District Court's denial of his
motion to suppress the evidence that law enforcement
authorities seized from his apartment. [**3] Veloz
argues that the District Court erred in denying this
motion because the application for the warrant that led
to the seizure failed to establish the requisite probable

cause.
When reviewing "the denial of a suppression motion, we
assess the district court's factfinding for clear error, and
review legal questions (such as probable cause . . . ) de
novo." United States v. Ackies, 918 F.3d 190, 197 (1st
Cir.), cert. denied, 140 S. Ct. 662, 205 L. Ed. 2d 443,
2019 WL 6833480 ( 2019). We employ a "totality-of-thecircumstances analysis" to see if the government
established "a fair probability that contraband or
evidence of a crime will be found in a particular place,"
Illinois v. Gates, 462 U.S. 213, 238, 103 S. Ct. 2317, 76
L. Ed. 2d 527 (1983), and "accord 'considerable
deference to reasonable inferences [that] the [issuing
judge] may have drawn from the attested facts,'" United
States v. Tiem Trinh, 665 F.3d 1, 10 (1st Cir. 2011)
(alteration in original) (quoting United States v. ZayasDiaz, 95 F.3d 105, 111 (1st Cir. 1996)).
Veloz's first ground for challenging the denial of his
motion to suppress focuses on the affidavit that
accompanied the application that FBI Special Agent
John Orlando ("SA Orlando") submitted for the search
warrant. The affidavit relied largely [*426] on
information from a confidential informant. Veloz
contends that, because the affidavit did not describe the
informant as having provided credible information to law
enforcement in the past, the warrant was not
supported [**4] by probable cause. We disagree.
"[A]n informant's tip can establish probable cause even
though the affidavit does not contain information about
the informant's past reliability," United States v.
Greenburg, 410 F.3d 63, 67 (1st Cir. 2005), as a
"probable cause finding may be based on an informant's
tip so long as the probability of a lying or inaccurate
informer has been sufficiently reduced," id. at 69. "We
apply a 'nonexhaustive list of factors' to examine the
affidavit's probable cause showing" when it is based on
a tip. United States v. Gifford, 727 F.3d 92, 99 (1st Cir.
2013) (quoting Tiem Trinh, 665 F.3d at 10). These
factors include:
(1) whether the affidavit establishes the probable
veracity and basis of knowledge of persons
supplying hearsay information; (2) whether an
informant's statements reflect first-hand knowledge;
(3) whether some or all of the informant's factual
statements were corroborated wherever reasonable
or practicable (e.g., through police surveillance);
and (4) whether a law enforcement affiant
assessed, from his professional standpoint,
experience,
and
expertise,
the
probable
significance of the informant's provided information.
App. 2

United States v. Veloz
Id.
In this case, the first two factors that we have set forth
above point in favor of finding the tip reliable. SA
Orlando's affidavit represented that the confidential
informant had [**5] provided a detailed description of
the illegal scheme's operations and Veloz's role in them.
His affidavit also made clear that the confidential
informant's description of those operations was based,
in part, on his having been inside Veloz's residence.
The third factor further indicates that the tip in this case
was reliable because SA Orlando's affidavit identified a
number of key respects in which the informant's tip had
been corroborated. For example, his affidavit stated that
the apartment building that the informant had identified
as Veloz's place of residence had a mailbox in it with
Veloz's name on it; that law enforcement had observed
a car parked in front of that residence -- a brown
Cadillac -- that matched the description that the
informant had previously given of Veloz's vehicle; and
that FBI agents had observed a red van that belonged
to one of Veloz's co-conspirators parked outside of that
same apartment building. Moreover, an attachment to
the warrant application stated that, in accord with the
confidential informant's claim that Veloz had used GPS
devices to monitor his victims, the investigation into the
July 23, 2012, kidnapping revealed that a GPS device
had been [**6] attached to the victim's car.
The fourth factor, which relates to the experience of the
law enforcement officer seeking the warrant, reinforces
the reliability of the tip here. SA Orlando represented in
his affidavit that the information that he had obtained
from the confidential informant accorded with what he
had learned from investigating kidnappings in the
nearby area over the course of the previous year. See
Zayas-Diaz, 95 F.3d at 111 (explaining that a search
warrant application is strengthened when "a lawenforcement affiant included a professional assessment
of the probable significance of the facts related by the
informant, based on experience or expertise").
Finally, in this case, "the [informant] was known to the
police and could be held responsible if his assertions
proved inaccurate [*427] or false." United States v.
Barnard, 299 F.3d 90, 93 (1st Cir. 2002) (citing Florida
v. J.L., 529 U.S. 266, 270, 120 S. Ct. 1375, 146 L. Ed.
2d 254 (2000)). Thus, this fact provides further support
for a finding that the confidential informant's tip was
reliable. Id.
Veloz has a fallback argument in challenging the District
Court's denial of his motion to suppress. He contends

that the District Court erred by mistakenly finding that
SA Orlando's affidavit stated that the informant
"admitted to his role in the kidnapping." But, because
the warrant application [**7] establishes the reliability of
the confidential informant's tip whether or not the
informant was himself involved in the kidnapping
scheme, we may affirm the District Court's probable
cause ruling on that basis. See Ackies, 918 F.3d at
197.1

III.
Veloz's next set of challenges also relies on what he
claims are deficiencies in the search warrant
application. Here, however, Veloz does not contend that
the deficiencies required the suppression of the
evidence at issue. Rather, he contends that due to what
he describes as "omissions and misstatement[s] in the
search warrant affidavit," the District Court erred in
refusing his pretrial motion to hold a hearing pursuant to
Franks v. Delaware, 438 U.S. 154, 98 S. Ct. 2674, 57 L.
Ed. 2d 667 (1978). Thus, he contends, the conviction
must be vacated for this reason.
A Franks hearing affords a defendant an opportunity to
show, "by a preponderance of the evidence," that the
warrant application "contains false statements or
omissions, made intentionally or with reckless disregard
for the truth, and that a finding of probable cause would
not have been made without those false statements or
omissions." United States v. Arias, 848 F.3d 504, 51011 (1st Cir. 2017). To be entitled to a Franks hearing,
the defendant must first make:
a "substantial preliminary showing" of the same two
requirements that he [**8] must meet at the
hearing — that "a false statement or omission in the

1

In light of our rejection of Veloz's challenge to the search of
his apartment, his challenge to the subsequent searches of his
electronic devices, made pursuant to a new warrant that relied
in part on information gleaned from the apartment search,
lacks merit. Veloz does separately argue that this evidence
should be suppressed because there was a "permanent and
endless government search" for over eighteen months. Veloz
fails to explain, however, why the delay in retuning the search
warrant requires suppression of the evidence. This argument
is thus waived for lack of adequate development. See United
States v. Zannino, 895 F.2d 1, 17 (1st Cir. 1990) ("[W]e see no
reason to abandon the settled appellate rule that issues
adverted to in a perfunctory manner, unaccompanied by some
effort at developed argumentation, are deemed waived.").
App. 3

United States v. Veloz
affidavit was made knowingly and intentionally or
with reckless disregard for the truth" and that the
false statement or omission was "necessary to the
finding of probable cause."
Id. at 511 (quoting United States v. McLellan, 792 F.3d
200, 208 (1st Cir. 2015)).
Veloz contends that the District Court erred in denying
his motion for a Franks hearing because he had made
the required substantial preliminary showing that SA
Orlando knew and omitted key facts from his affidavit
about Maldonado's criminal history, previous addiction
to heroin, bipolar disorder diagnosis, and some false
statements that Maldonado made regarding the
kidnappings. Because this challenge is preserved, we
review the District Court's factual determinations in
denying a motion for a Franks hearing for clear error,
and its determination of [*428] whether the defendant
has made a substantial preliminary showing that the
omitted information was material to the finding of
probable cause de novo, see id.
Here, because the information in the warrant application
that supported a finding that the confidential informant's
tip was reliable was so substantial, the omitted
information that Veloz points to was not material to "the
probable [**9] cause calculus." United States v.
Stewart, 337 F.3d 103, 106 (1st Cir. 2003). That is
especially so because "magistrate judges . . . often
know, even without an explicit discussion of criminal
history, that many confidential informants 'suffer from
generally unsavory character' and may only be assisting
police to avoid prosecution for their own crimes." United
States v. Avery, 295 F.3d 1158, 1168 (10th Cir. 2002)
(quoting United States v. Novaton, 271 F.3d 968, 985
(11th Cir. 2001)).
We also are unpersuaded by Veloz's separate challenge
to the District Court's denial of a Franks hearing based
on what he contends was SA Orlando's false statement
in his affidavit that the confidential informant "picked
Danny Veloz out of a photo binder on July 24, 2012."
According to Veloz, his picture was not included in a
photo array until August 2, 2012, and Veloz contends
that the statement about when his photo was picked out
of the binder was a "critical fact relied on by the
magistrate judge in finding probable cause . . . as it was
a critical detail offered to confirm the informant's
knowledge of Veloz[.]"
Veloz first made the argument that he was entitled to a
Franks hearing, however, in a motion for
reconsideration. Thus, Veloz preserved only his

challenge to the denial of that motion. Our review of the
denial of such a motion is only for abuse of discretion,
see United States v. Fanfan, 558 F.3d 105, 106-07 (1st
Cir. 2009), and [**10] Veloz makes no argument that
the District Court abused its discretion in denying that
motion. Nor do we see how he could, given that he was
not presenting new evidence in that motion, see United
States v. Allen, 573 F.3d 42, 53 (1st Cir. 2009), as, prior
to Veloz's motion for reconsideration on November 3,
2016, the District Court had already laid out the
accurate version of events in its June 4, 2015, decision
to deny a Franks hearing.
Insofar as Veloz means to press this argument as a
basis for challenging the District Court's original decision
to deny his motion for a Franks hearing, we may only
review it for plain error. See United States v. TancoPizarro, 892 F.3d 472, 479 (1st Cir.) ("[A]rguments
unveiled for the first time in a reconsideration motion are
not preserved for appeal."), cert. denied, 139 S. Ct. 354,
202 L. Ed. 2d 250 (2018). But, given the other
information in the warrant application, this one
representation, even if Veloz could show that SA
Orlando knew that it was false, is not of a kind that could
make plain that Veloz had made the requisite
preliminary showing that the statement was material to a
finding of probable cause.
We come, then, to Veloz's contention that the District
Court erred in denying his motion for a Franks hearing
because the affidavit from SA Orlando failed to reveal
that the confidential informant [**11] to whom it referred
was, in fact, Maldonado. As Veloz puts it, the application
failed to "identify Maldonado . . . , instead referring to
him as 'CI-1,' and describ[ing] him as a 'confidential
informant working with the FBI's North Shore Gang Task
Force.'"
The government does not dispute that Maldonado was
the confidential informant or that the warrant application
failed to disclose that fact. We do not see, though, how
this omission could be thought to undermine [*429] the
basis for finding probable cause. As we have explained,
the warrant application provides ample support for
finding the informant's tip to be reliable whether or not
the informant was involved in the conspiracy. In fact, the
inclusion of the fact that Maldonado was the informant
would appear to provide additional support for finding
the tip reliable, given that it would provide a basis for
finding that the informant was relaying firsthand
knowledge.
In any event, our review of this contention is only for
App. 4

United States v. Veloz
plain error, because Veloz did not press this ground for
requesting a Franks hearing below. Yet, Veloz "fails to
even attempt to explain how the plain error standard has
been satisfied." United States v. Severino-Pacheco, 911
F.3d 14, 20 (1st Cir. 2018); see also United States v.
Pabon, 819 F.3d 26, 33 (1st Cir. 2016) ("[Appellant] has
waived [**12] these challenges because he has not
even attempted to meet his four-part burden for forfeited
claims.").

IV.
The next pretrial ruling that Veloz challenges relates to
the District Court's grant of the government's motion to
strike Special Agent Jeffrey Rolands ("SA Rolands")
from his witness list. In his initial opposition to the
government's motion, Veloz argued to the District Court
that he did not need to provide any justification for
including the persons on his witness list that he did, and
that, in the alternative, every witness on his list should
be allowed to appear because they could "offer[]
evidence regarding . . . the flaws in the investigation and
the deficiencies in the securing of evidence." The
District Court nevertheless granted the government's
motion to strike, stating that it was necessary to "protect
the jury from testimony that is irrelevant, cumulative, or
confusing" and because SA Rolands had "been
transferred to Washington DC" In a motion for
reconsideration, Veloz contended that the decision to
strike SA Rolands interfered with his ability to present
his defense, as he intended to call SA Rolands in order
to cast doubt on the integrity of the government's
investigation. [**13]

discretion"). Yet, under Washington, it is not an abuse of
discretion for a district court to bar a witness -- as the
District Court barred the witness here -- from testifying
due to the cumulative nature of the testimony that he
would provide. See United States v. Scheffer, 523 U.S.
303, 308, 118 S. Ct. 1261, 140 L. Ed. 2d 413 (1998) ("A
defendant's right to present relevant evidence is not
unlimited, but rather is subject to reasonable
restrictions."); United States v. Sabean, 885 F.3d 27, 40
(1st Cir. 2018) ("Trial courts enjoy 'considerable latitude'
to exclude evidence that is 'admittedly relevant' [**14]
but also 'cumulative.'" (quoting Hamling v. United
States, 418 U.S. 87, 127, 94 S. Ct. 2887, 41 L. Ed. 2d
590 (1974))). As Veloz does not [*430] explain what
SA Rolands' testimony would have provided that would
render the District Court's determination that it was
cumulative of other evidence in the record an abuse of
discretion, we reject this contention.

V.
We turn, then, to Veloz's contention that the District
Court reversibly erred by admitting into evidence a
transcript of a recording of statements by Gadiel
Romero, one of Veloz's co-conspirators, which
purported to confirm Veloz's role in the kidnapping
scheme. The statements set forth in the transcript were
made during a conversation that Romero had with
Maldonado while both men were in prison and that
Maldonado had secretly recorded with equipment the
government had provided to him.

The parties dispute whether Veloz adequately
preserved his challenge to the District Court's initial
decision to grant the government's motion. But, we need
not resolve that dispute because Veloz's challenge,
even if preserved as to the District Court's initial
decision, still fails.

On September 29, 2016, the government filed a motion
in limine to admit, pursuant to Federal Rule of Evidence
804(b)(3), a transcript of the statements that Romero
made
during
this
recorded
conversation,
notwithstanding that they otherwise would have been
inadmissible as hearsay. Federal Rule of Evidence
804(b)(3) allows for the admission of hearsay
statements that:

Veloz bases his challenge on his federal constitutional
right, as a matter of procedural due process, to call
witnesses in his defense. See Washington v. Texas,
388 U.S. 14, 19, 87 S. Ct. 1920, 18 L. Ed. 2d 1019
(1967). To show that this right has been violated,
however, Veloz must demonstrate that the District Court
abused its discretion in excluding SA Rolands from his
list of witnesses. See United States v. Occhiuto, 784
F.3d 862, 867 (1st Cir. 2015) (reviewing the defendant's
constitutional challenge regarding the denial of his
request to call a particular witness for "abuse of

(A) a reasonable person in the declarant's position
would have made only if the person believed it to
be true because, when made, it was so
contrary [**15] to the declarant's proprietary or
pecuniary interest or had so great a tendency to
invalidate the declarant's claim against someone
else or to expose the declarant to civil or criminal
liability; and
(B) is supported by corroborating circumstances
that clearly indicate its trustworthiness, if it is
offered in a criminal case as one that tends to
App. 5

United States v. Veloz
expose the declarant to criminal liability.
The District Court granted the government's motion on
October 28, 2016. Veloz then moved for the District
Court to reconsider that ruling. In response, the
government offered to admit a revised transcript that
contained only certain excerpts from the conversation
between Romero and Maldonado. Veloz objected to the
admission into evidence of the revised transcript. The
District Court overruled the objection. Veloz now argues
on appeal that the District Court erred in permitting the
revised transcript to be admitted into evidence.2
Veloz first contends that, wholly apart from whether the
statements at issue are admissible via the revised
transcript pursuant to Rule 804(b)(3), their admission
violated the Confrontation Clause of the Sixth
Amendment under Bruton v. United States, 391 U.S.
123, 88 S. Ct. 1620, 20 L. Ed. 2d 476 (1968) and Lilly v.
Virginia, 527 U.S. 116, 139, 119 S. Ct. 1887, 144 L. Ed.
2d 117 (1999). Our review of a preserved Confrontation
Clause challenge is de novo. See United States v.
Phoeun Lang, 672 F.3d 17, 21 (1st Cir. 2012).
In considering Confrontation Clause challenges, "[t]he
threshold [**16] question [*431] in every case is
whether the challenged statement is testimonial. If it is
not, the Confrontation Clause 'has no application.'"
United States v. Figueroa-Cartagena, 612 F.3d 69, 85
(1st Cir. 2010) (quoting Whorton v. Bockting, 549 U.S.
406, 420, 127 S. Ct. 1173, 167 L. Ed. 2d 1 (2007)).
Because Romero's statements set forth in the revised
transcript were not testimonial, Veloz's Confrontation
Clause challenge necessarily founders -- even under
the de novo standard of review -- on that threshold
question. See Davis v. Washington, 547 U.S. 813, 825,
126 S. Ct. 2266, 165 L. Ed. 2d 224 (2006) (noting that
"statements made unwittingly to a Government
informant" are "clearly nontestimonial" (citing Bourjaily v.

2

"Typically, litigants offer recordings as evidence and use
transcripts as interpretive aids for the jurors' benefit. The
recordings control in the event that they differ from the
proffered transcripts." United States v. Kifwa, 868 F.3d 55, 60
(1st Cir. 2017) (internal citation omitted). However, when
confronted with a conversation in a foreign language, such as
the one between Romero and Maldonado, "the parties may
agree to forgo having jurors listen to foreign-language
recordings that they do not understand," and instead admit
into evidence "transcripts containing translations of such
recordings . . . as long as they are reliable and properly
authenticated." Id. Neither Veloz nor the government appears
to have objected to the use of the transcript.

United States, 483 U.S. 171, 181-84, 107 S. Ct. 2775,
97 L. Ed. 2d 144 (1987))).
Veloz next contends that, contrary to the District Court's
ruling, the exception to the hearsay bar that is set forth
in Federal Rule of Evidence 804(b)(3) does not apply to
the statements at issue. To make that case, he asserts
that some of the statements that Romero made during
the recorded conversation were made to "minimize
[Romero's] involvement in the conspiracy" and thus
were not made against his penal interest. Veloz also
points to certain other statements that Romero made
during the recorded conversation that he contends a
jury could have interpreted to be self-exculpatory, as the
statements suggested that Romero believed that "no
one else placed him at the scene of the kidnapping" and
that "some of the co-defendants [did not] know him."
We review preserved challenges to evidentiary [**17]
rulings under the Federal Rules of Evidence for abuse
of discretion, see Ackies, 918 F.3d at 205, and the
government concedes that this standard applies here,
even though Veloz first objected to the revised
transcript's admission in a motion for reconsideration,
see Trenkler v. United States, 536 F.3d 85, 96 (1st Cir.
2008) ("Where a trial court chooses to overlook the
belated nature of a filing and adjudicate the tardy claim
or defense on the merits, that claim or defense may be
deemed preserved for purposes of appellate review.").
Even under the abuse of discretion standard of review,
however, the challenge fails for a simple reason: the
government did not include in the revised transcript of
the recording that was admitted into evidence the
statements that Veloz identifies as the ones that failed
to fall within the Rule 804(b)(3) exception. See United
States v. Barone, 114 F.3d 1284, 1295 (1st Cir. 1997)
(noting that the Rule 804(b)(3) inquiry narrowly focuses
on whether a specific remark could be deemed selfinculpatory, making exclusion only appropriate, "in light
of all the surrounding circumstances," for those
particular statements that are "collateral," "non-selfinculpatory statements" (quoting Williamson v. United
States, 512 U.S. 594, 600, 604, 114 S. Ct. 2431, 129 L.
Ed. 2d 476 (1994))).
Relatedly, Veloz contends that the government failed to
demonstrate, as Federal Rule of Evidence 804(b)(3)(B)
requires, that there were "corroborating circumstances"
with respect to [**18] the statements from Romero that
were included in the revised transcript. For this
exception to the bar on the admission of hearsay to
apply, however, there need only be "evidence that
clearly indicates that the statements are worthy of belief,
App. 6

United States v. Veloz
based upon the circumstances in which the statements
were made." Id. at 1300. Thus, there is no merit to this
challenge because Veloz fails to explain why the
statements made here, which were to a "fellow inmate,"
are not of that sort, see United States v. Pelletier, 666
F.3d 1, 8 (1st Cir. 2011).
[*432] Finally, Veloz argues that the District Court
erred in failing to exercise its supervisory powers to
prevent Romero's statements from being admitted into
evidence via the revised transcript. He contends that the
court order that allowed Maldonado to use the
government's equipment to record his conversation with
Romero permitted him to do so only if Maldonado
avoided raising the subject of the kidnapping
conspiracy. Veloz then contends that the transcript of
the recorded conversation reveals -- in his view,
contrary to the dictates of the court order -- that
Maldonado brought up that topic and that Romero made
statements about Veloz's role in the conspiracy only at
that point in the conversation. Accordingly, he
contends [**19] that the District Court was required to
exclude the statements at issue as a means of enforcing
the court order.
We review preserved challenges to the failure to
exercise supervisory powers for abuse of discretion.
See United States v. Black, 733 F.3d 294, 301 (9th Cir.
2013) ("We review for abuse of discretion the district
court's decision not to use its supervisory powers to
dismiss an indictment."). The draft transcript of the
conversation does show that Maldonado brought up the
kidnapping scheme to Romero. But, the court order that
permitted Maldonado to record his conversation with
Romero merely required the government to instruct
Maldonado not to raise that topic. Because Veloz does
not dispute that the government did so instruct
Maldonado, we see no basis for ruling that, to enforce
the government's compliance with the court order, the
District Court was obliged to exercise its supervisory
powers to exclude the transcript insofar as it contained
the statements from Romero that Veloz finds
objectionable. See United States v. Jennings, 960 F.2d
1488, 1491 (9th Cir. 1992) ("Absent a violation of a
recognized right under the Constitution, a statute, or a
procedural rule, a district court is not entitled to exclude
evidence as a sanction against government practices
disapproved of by the court."); [**20] United States v.
Osorio, 929 F.2d 753, 763 (1st Cir. 1991) ("Without a
nexus between improper prosecutorial practice and
prejudice to the defendant, misconduct must be
characterized as harmless error, and thus beyond the
scope of redress under supervisory powers by dismissal

or reversal.").
Independent of the challenges that he brings that focus
on the fact that the revised transcript included Romero's
statements, Veloz also contests the admission of the
revised transcript on the ground that it included a
statement by Maldonado that conveyed certain
information that he had learned from investigators. The
contention seems to be that this statement from
Maldonado was hearsay and thus was inadmissible for
that reason. But, Maldonado's statement was admitted
into evidence solely to identify the statement to which
Romero was responding in making a statement of his
own that the revised transcript included and not for its
truth. Thus, the District Court did not err in permitting the
admission of that statement via the revised transcript.
See United States v. Walter, 434 F.3d 30, 34 (1st Cir.
2006).3

VI.
We turn now to Veloz's contention that the District Court
reversibly erred at [*433] trial because it permitted the
admission of certain evidence and testimony that
concerned U.S. Fleet Tracking's GPS data. U.S. Fleet
Tracking produces the GPS devices that Veloz allegedly
used to track his victims.
Veloz first argues that the District Court erred in
permitting this data to be admitted under the hearsay
exception for business records that is set forth in
Federal Rule of Evidence 803(6). Rule 803(6) states
that:
A record of an act, event, condition, opinion, or
diagnosis [can be admitted into evidence] if:
(A) the record was made at or near the time by —
or from information transmitted by — someone with
knowledge;
(B) the record was kept in the course of a regularly
conducted activity of a business, organization,
occupation, or calling, whether or not for profit;
(C) making the record was a regular practice of that
activity;
3

Maldonado's statement that was admitted into evidence
reads as follows:
'Cause you, when they told me is that these n****s, right,
they had them under surveillance already for a long time,
that these n****s been doing burning and f***ing stabbing,
and f***ing n****rs up for the [**21] longest time, right?
You think Cano and Danny will say: "Yo, we are hot," you
know what I mean?
App. 7

United States v. Veloz
(D) all these conditions are shown by the testimony
of the custodian or another qualified witness, or by
a certification that complies with Rule 902(11) or
(12) or with a statute permitting certification; and
(E) the opponent does not show [**22] that the
source of information or the method or
circumstances of preparation indicate a lack of
trustworthiness.
Fed. R. Evid. 803(6).
Veloz trains his focus initially on the requirements that
are set forth in subsections (A)-(C). Veloz contends that,
because the GPS data that was admitted into evidence
was prepared in anticipation of litigation, these
requirements were not met. But, while the government's
trial exhibit that set forth the GPS data was so prepared,
the government showed that U.S. Fleet Tracking
created
and
stored
the
GPS
data
itself
contemporaneously with Veloz's conduct and thus not in
preparation for the litigation. We thus reject Veloz's first
ground for claiming that the business records exception
did not encompass the data in question.
Veloz next focuses on subsection (D). He argues that
the government failed to provide a "qualified witness" to
testify that the relevant conditions had been met for
admitting the GPS data under the business records
exception. Veloz focuses solely on the testimony of
Task Force Officer Jason Sutherland. Veloz contends
that Sutherland was not qualified within the meaning of
the provision in part because he could not explain some
discrepancies in the GPS data. But, the government
also offered [**23] the testimony of Bill Eichhorn, an
executive at U.S. Fleet Tracking. Eichhorn was clearly a
qualified witness whose testimony sufficed to show the
conditions in Rule 803(6) were met here. Nor does
Veloz argue otherwise. Thus, this challenge fails, too.

VII.
We move on to Veloz's challenge to the District Court's
decision at trial to admit certain testimony offered by
Eichhorn, the U.S. Fleet Tracking representative, and
Elisabeth Lenehan, an FBI staff operations specialist.
Here, too, we find no merit to Veloz's challenges.
Veloz contends that the District Court erred by
permitting Eichhorn to recount hearsay when he
"introduced the purchase orders and information from
other companies" than U.S. Fleet Tracking, which we
understand to be a reference to certain records relating
to AT&T, Brickhouse Security, and FedEx to which

Eichhorn had referred in his testimony. Our review is for
[*434] abuse of discretion. See Ackies, 918 F.3d at
205.
The problem with this contention is that it rests upon a
mistaken understanding of the facts. Our review of the
record shows that the documents to which Eichhorn
referred in his testimony were emails and records pulled
from U.S. Fleet Tracking's own recordkeeping system.
To the extent that the [**24] record can be read to the
contrary, moreover, any error would have been
harmless, given the substantial independent evidence of
Veloz's guilt. Nor does Veloz develop any argument to
the contrary.
Veloz's challenges with respect to Lenehan's testimony
also lack merit. Veloz first contends that the District
Court reversibly erred by permitting her to testify to the
contents of her conversation with T-Mobile regarding a
phone seized from Veloz's apartment and that one of
the co-conspirators had listed Maldonado in his phone
as "H."
But, Veloz similarly fails to develop any argument about
why the admission of the T-Mobile testimony, even if
improper, was not harmless, given the evidence as a
whole. See Zannino, 895 F.2d at 17. And, the record
indicates that the testimony about "H" was harmless, as
a co-conspirator had already appeared at trial and
testified to the same effect. See United States v.
Valdivia, 680 F.3d 33, 46 (1st Cir. 2012) (finding the
admission of hearsay harmless when it "is cumulative of
other evidence in the record"). Nor does Veloz explain
how Lenehan's testimony about "H" was prejudicial.
Veloz next claims that the District Court erred by
allowing Lenehan to offer improper opinion testimony on
matters that included "what nicknames and letters
meant. [**25] . . . [and] extraction reports she had not
written." Veloz asserts that this testimony enabled
Lenehan "to link the alleged conspirators . . . with her
speculative interpretations" of the contact list and phone
numbers on a co-conspirator's phone. But, as Veloz fails
to identify the specific statements that he contends that
Lenehan was not qualified to interpret, the challenge is
waived for lack of development. See id.

VIII.
We now turn to a challenge that Veloz brings to events
that occurred on the fifth day of the trial, when the
District Court conducted the voir dire of Eichhorn,
outside the presence of the jury, to determine his
App. 8

United States v. Veloz
qualifications as an expert witness. The record shows
the following: Veloz's counsel asked the District Court
whether Veloz was available to attend the voir dire. The
District Court responded both that it did not know and
that it was not necessary to have Veloz present for that
portion of the proceedings. Veloz's counsel did not then
further press the point, and Veloz was not present for
the voir dire.
On appeal, Veloz contends that he was excluded from
the voir dire and that this exclusion violated his rights
under the Due Process Clause and the Confrontation
Clause to be present "at all critical [**26] stages of the
trial." Rushen v. Spain, 464 U.S. 114, 117, 104 S. Ct.
453, 78 L. Ed. 2d 267 (1983) (per curiam).4 The
government responds [*435] that, because Veloz did
not press the point below, he must satisfy the plain error
standard, see United States v. Karmue, 841 F.3d 24, 27
(1st Cir. 2016), which is a point that Veloz disputes.
Insofar as Veloz must satisfy the demanding plain error
standard, his challenge cannot succeed because he
makes no attempt to show how any error was plain, see
Severino-Pacheco, 911 F.3d at 20. But, even if we were
to review his challenge de novo, see Karmue, 841 F.3d
at 26, we do not see how it has merit.
The Due Process Clause "requires that a defendant be
allowed to be present 'to the extent that a fair and just
hearing would be thwarted by his absence,'" Kentucky v.
Stincer, 482 U.S. 730, 745, 107 S. Ct. 2658, 96 L. Ed.
2d 631 (1987) (quoting Snyder v. Massachusetts, 291
U.S. 97, 108, 54 S. Ct. 330, 78 L. Ed. 674 (1934)).
Veloz appears to have been in no position to assist his
counsel with respect to any factual disputes regarding
Eichhorn's qualifications. Nor does Veloz offer any
examples of the objections that he would have made or
assistance that he would have offered had he been
present at the voir dire. Thus, Veloz fails to show how
his presence at Eichhorn's voir dire would have been
necessary to ensure that it was a fair and just
proceeding. See id. at 747 (ruling against a defendant,

4

Though Veloz fails to cite it in his brief, we note that Federal
Rule of Criminal Procedure 43(a) codifies this Due Process
right. See United States v. Iverson, 897 F.3d 450, 466 (2d Cir.
2018). Rule 43 provides, in pertinent part, that "the defendant
must be present at: (1) the initial appearance, the initial
arraignment, and the plea; (2) every trial stage, including jury
impanelment and the return of the verdict; and (3) sentencing."
The rule also states that a defendant need not be present
when "[t]he proceeding involves only a conference or hearing
on a question of law." Fed. R. Crim. P. 43(b)(3).

in part, because he gave "no indication that his
presence at the competency hearing . . . would have
been useful in ensuring a [**27] more reliable
determination").5

IX.
That brings us to the suite of challenges that Veloz
brings to certain comments that the prosecutor made
during his closing argument and his rebuttal. Veloz
chiefly contends, as he did below, that the prosecutor
made the improper comments by: (1) engaging in
"burden shifting" during rebuttal; (2) referring to Romero;
(3) characterizing "the U.S. Fleet [data and records] as
business records"; (4) characterizing "Romero as the
pillar of the case"; (5) stating that Veloz's counsel
"[went] after Eichhorn"; and (6) claiming that Romero did
not know he was being recorded.
We may "vacate a conviction only if the [prosecutor's
improper] remarks 'so poisoned the well that the trial's
outcome was likely affected.'" United States v. French,
904 F.3d 111, 124 (1st Cir. 2018) (quoting United States
v. Kasenge, 660 F.3d 537, 542 (1st Cir. 2011)). "In
assessing this question, we consider the severity of the
conduct and whether it was deliberate, the context, the
presence of curative instructions and their likely effect,
and the strength of the prosecution's case." Id.
We review preserved challenges to the propriety of a
prosecutor's remarks de novo. See United States v.
Zarauskas, 814 F.3d 509, 514 (1st Cir. 2016). We may
assume that Veloz's objections to each of these
statements were timely made because, even on that
assumption, there is no [**28] basis for finding that the
District Court reversibly erred in overruling them.
[*436] We have already explained why Veloz's
challenges to the admission of Romero's statements via
the revised transcript and to the U.S. Fleet Tracking
data lack merit. In light of that same reasoning, there
was nothing improper in the prosecutor referring to
Romero's statements in the revised transcript, given that
the statements were properly admitted, or to the GPS
data being business records, given that they were

5

Nor do we see any Confrontation Clause violation -- insofar
as Veloz means to contend that there was one -- resulting
from Veloz's absence from the voir dire. Veloz had an
"opportunity for full and effective cross-examination" of
Eichhorn with regard to his background during the trial.
Stincer, 482 U.S. at 744.
App. 9

United States v. Veloz
properly so deemed under Federal Rule of Evidence
803(6). Nor do we see how, given the substantial
evidence against Veloz, these statements by the
prosecutor were so prejudicial as to affect the trial's
outcome. That is especially so given that the District
Court instructed the jury, both before and after closing
arguments began, that "[w]hat the lawyers say, what I
say as far as any factual matter in the case goes, does
not matter. You, as the jury, are the sole judges of the
facts." In fact, Veloz fails to develop anything more than
a cursory argument that the comments just described
were so prejudicial as to warrant overturning the
conviction.
There remains to address only the other comments by
the prosecutor that Veloz identifies [**29]
as
problematic. But, as to these comments, too, Veloz fails
to demonstrate how any of them caused the requisite
prejudice. Thus, his challenges based on those
comments are meritless as well, even if we were to
assume that any of these comments were somehow
improper.6

X.
Next up is Veloz's penultimate challenge. It is to the
District Court's instruction to the jury, just before it
began its deliberations, that Maldonado's "recording
was obviously made without Mr. Romero's knowledge."
Veloz argues that the District Court's instruction
"decided an issue of fact for the jury, and clearly injected
the court's opinion into evaluating the evidence." In
other words, Veloz contends, the instruction "eliminated
the possibility that the jurors could reject the transcript
outright as untrustworthy."
The government points out that, although Veloz made
an objection to a draft form of the instruction in the
morning on the day that jury was charged, he failed to
renew that objection after the jury was charged. Veloz
responds that he did not renew his objection at that time
because the District Court stated that it would consider
the objections from that morning preserved. But,
Federal Rule of Criminal Procedure 30, which governs
objections [**30] to jury instructions, "require[s] the
appellant to renew his objection after the jury has been
charged when the court has given the parties that
opportunity," United States v. Henry, 848 F.3d 1, 13 (1st

6

The same is true as to Veloz's challenges to yet other
comments that the prosecutor made that Veloz, for the first
time on appeal, now contends were also improper.

Cir. 2017), and we have held that the fact that a district
court made a statement "after the charge that objections
made prior to it will be saved does not absolve the
attorney from following the strictures of the rule," id.
(citation omitted).
Even if we were to treat the challenge as preserved, it
still would fail. The District Court repeatedly advised the
jury that it was the "sole judge[] of the facts." Moreover,
Veloz does not dispute that Romero was unaware that
Maldonado was recording his conversation with him,
and the record provides no basis from which a
reasonable juror could conclude otherwise. Thus, we fail
to see how the District Court's statement in the
instruction was sufficiently prejudicial to constitute
reversible error.

XI.
Veloz's final ground for challenging his conviction
concerns a ruling [*437] that the District Court made
after the jury rendered its verdict that Veloz was guilty of
the charged offense. At that time, the District Court
denied Veloz's motion pursuant to Federal Rule of
Criminal Procedure 33 for a new trial based on his
allegation that "evidence [**31] was tampered with,
thereby denying [him] a fair trial."7 We review a "denial
of a Rule 33 motion for manifest abuse of discretion with
the respect due to the presider's sense of the ebb and
flow of the recently concluded trial." United States v.
Tull-Abreu, 921 F.3d 294, 301-02 (1st Cir.) (internal
citation and quotation marks omitted) (alterations
omitted), cert. denied, 140 S. Ct. 424, 205 L. Ed. 2d 241
(2019). But, a district court "must exercise that
discretion sparingly and in the most extraordinary
circumstances, and only in order to avert a perceived
miscarriage of justice. In short, the ultimate test for
granting a new trial pursuant to [the Rule] is whether
letting a guilty verdict stand would be a manifest
injustice." United States v. Gramins, 939 F.3d 429, 444
(2d Cir. 2019) (internal citations and quotation marks
omitted).
Veloz's arguments concerning the District Court's
asserted error in denying his Rule 33 motion are not
easy to follow. As best we can tell, Veloz points to five
instances of alleged mishandling or tampering with
evidence that he contends were set forth in his Rule 33

7

Rule 33 states that "[u]pon the defendant's motion, the court
may vacate any judgment and grant a new trial if the interest
of justice so requires."
App. 10

United States v. Veloz
motion: (1) someone tampered with data on one of the
laptops seized from the apartment of Luis Reynoso's, a
co-conspirator, apartment; (2) a laptop seized from
Veloz's apartment showed that Veloz accessed a photo
on July 23, 2012, that did not come into existence until
July 24, 2012; [**32] (3) GPS data on the phone of
Jose Guzman's, a co-conspirator, phone was "altered
between November 5 and November 15, 2012"; (4) two
phones taken from Jose Matos, a co-conspirator, were
lost or destroyed during the investigation; and (5) SA
Orlando "returned crucial evidence to a cooperator's
wife without copying the materials first."
Veloz appears to be arguing that the evidence offered
against him was so unreliable, on account of these
alleged problems with the way evidence against him
was handled, that there was insufficient evidence upon
which to convict him of the charged offense. The District
Court found, however, that Veloz's counsel laid out each
of these asserted problems with the way that the
government had handled the investigation to the jury
and that the jury, fully cognizant of those alleged
problems, nonetheless found Veloz guilty. Veloz does
not challenge the finding that the contentions that he
raises in his Rule 33 motion were ones that the jury was
given a full opportunity to consider. Nor does he
succeed in demonstrating that the contentions are such
as to compel a finding that, in consequence of them, the
evidence against him did not suffice to support the
conviction, let alone that [**33] the District Court
manifestly abused its discretion in finding against him on
that point. As a result, this challenge to the denial of his
motion for a new trial fails. See United States v. Merlino,
592 F.3d 22, 32 (1st Cir. 2010)(stating that relief under
Rule 33 for a sufficiency challenge may only be granted
"where the evidence preponderates heavily against the
verdict" (quoting United States v. Wilkerson, 251 F.3d
273, 278 (1st Cir. 2001)).

XII.
The conviction is affirmed.

End of Document

App. 11

United States v. Veloz
United States District Court for the District of Massachusetts
June 4, 2015, Decided; June 4, 2015, Filed
CRIMINAL ACTION NO. 12-10264-RGS

Reporter
109 F. Supp. 3d 305 *; 2015 U.S. Dist. LEXIS 72638 **

UNITED STATES OF AMERICA v. DANNY VELOZ et
al. MEMORANDUM AND ORDER ON DEFENDANTS'
MOTIONS TO SUPPRESS

For Danny Veloz, also known as, Maestro, also known
as, Joil Rivera, Defendant: Mark W. Shea, LEAD
ATTORNEY, Shea & LaRocque, Cambridge, MA.
For Luis Reynoso, Defendant: J. Thomas Kerner, LEAD
ATTORNEY, Boston, MA.

Subsequent History: Motion denied by United States
v. Veloz, 2016 U.S. Dist. LEXIS 149103 (D. Mass., Oct.
27, 2016)
Motion granted by United States v. Veloz, 2017 U.S.
Dist. LEXIS 60421 (D. Mass., Apr. 20, 2017)
Motion granted by, in part United States v. Veloz, 2017
U.S. Dist. LEXIS 112271 (D. Mass., July 19, 2017)
Motion denied by United States v. Veloz, 2017 U.S.
Dist. LEXIS 117627 (D. Mass., July 27, 2017)

For Gadiel Romero, also known as, TC, Defendant:
William R. Sullivan, Jr., LEAD ATTORNEY, Sullivan &
Sullivan, Haverhill, MA.
For Jose Matos, also known as, Boika, Defendant:
Jessica Diane Hedges, LEAD ATTORNEY, Hedges &
Tumposky, Boston, MA.
For USA, Plaintiff: Christopher J. Pohl, Peter K. Levitt,
LEAD ATTORNEYS, United States Attorney's Office,
Boston, MA.

Decision reached on appeal by United States v.
Romero, 906 F.3d 196, 2018 U.S. App. LEXIS 28822
(1st Cir. Mass., Oct. 12, 2018)
Affirmed by United States v. Veloz, 948 F.3d 418, 2020
U.S. App. LEXIS 2290 (1st Cir. Mass., Jan. 24, 2020)
Motion denied by United States v. Wallace, 2020 U.S.
Dist. LEXIS 90765 (D. Mass., May 23, 2020)

Counsel: [**1] For Jose Guzman, also known as,
Cano, Defendant: Paul J. Davenport, LEAD
ATTORNEY, Jeruchim & Davenport, LLP, Boston, MA.

Judges: Richard G. Stearns, UNITED STATES
DISTRICT JUDGE.

Opinion by: Richard G. Stearns

Opinion
For Henry Maldonado, Defendant: Scott P. Lopez,
LEAD ATTORNEY, Lawson & Weitzen, Boston, MA.
For Thomas Wallace, also known as, Thomas D.
Wallace, Defendant: Valerie S. Carter, LEAD
ATTORNEY, Carter & Doyle, LLP, Lexington, MA.

[*308] MEMORANDUM AND ORDER ON
DEFENDANTS' MOTIONS TO SUPPRESS
STEARNS, D.J.
Appendix B

App. 12

United States v. Veloz
The above-captioned case was transferred to this
session of the court on November 4, 2014. Several
motions to suppress are pending. The first three [**2]
involve the identifications of defendants Danny Veloz,
Jose Matos, and Gadiel Romero by cooperating
witnesses.1 In addition, Veloz objects to the search of
his residence pursuant to a warrant issued by
Magistrate Judge Marianne Bowler,2 the subsequent
search of hard drives and memory chips taken from
computers and cell phones seized at his home, and to a
later search of email accounts held in his name by
Google and Apple.3 The court heard oral argument on
the legal issues on May 13, 2015. As there are no
material facts in dispute, the court declines to hold an
evidentiary hearing, and will instead address each
motion on its merits.
BACKGROUND
The FBI and various local law enforcement agencies
had undertaken a joint investigation of Joloperros (which
roughly translates [**3] to "stick-up men") involved in
violent kidnappings and home invasions in the
Lawrence, Massachusetts area. Joloperros "crews"
frequently targeted local drug dealers. The crews would
surreptitiously attach global positioning system (GPS)
units to their victims' vehicles, track their movements,
and after a successful hostage-taking, demand ransom
payments from the kidnap victims and their families.
On July 23, 2012, Lawrence police responded to a 9-1-1
call at 67 Allston Street, after Minerva Amparo reported
having witnessed a white minivan follow her husband's
car into their driveway. [*309] Three men wearing
masks and black T-shirts emblazoned with the word
"Police" (and shouting "Police!") had held her husband
Manuel Amparo and another man (Jose Castro) at
gunpoint, forcing them into the van and driving away.
Lawrence police and the FBI recovered a white zip tie
(used as a handcuff) next to Manuel Amparo's car, as
well as a small GPS device that had been attached to
the rear side bumper of his car.

Early the following morning, Manchester, New
Hampshire police responded to a 9-1-1 call at 859 Clay
Street, after a homeowner reported that a man standing
on his porch claimed to have been a kidnapping [**4]
victim. Manuel Amparo, displaying visible injuries, had
escaped from his captors and run for help. He told
police that he had been kidnapped in Lawrence the day
before by four masked men in a white Toyota minivan.
He had been take to New Hamphire where he was
punched, kicked, burned with an iron, and held for
ransom.4 He led police to 890 Clay Street, where Castro
and three of the kidnappers were still on the premises.
Officers arrested Henry Maldonado, Thomas Wallace,
and Jose Guzman, and, after obtaining a search warrant
for the house and the minivan, seized a handgun, police
paraphernalia, a GPS device, and several heating irons.
Police also discovered blood stains in the interior of the
minivan.
After initially denying his involvement, one of the
arrested men (identified as CW-2) begin cooperating
with the government. On the evening of July 24, 2012,
CW-2 gave a lengthy, recorded, post-Miranda statement
in which he admitted to his role in the kidnapping. See
Dkt. No. 309-9. CW-2 related that he met the members
of [**5] the crew (Guzman, Wallace, Gadiel Romero
also known as "TC," and Luis Reynoso) at the Veloz
residence, and drove to Matos also known as "Boyca"'s
apartment to gather firearms and police shirts. They
then drove to Amparo's home in the white minivan.
There, dressed in police regalia, they had abducted
Amparo and Castro and taken them to New Hampshire.
CW-2 named Veloz as the chief of the crew and
described the location and interior layout of his home.
CW-2 explained that Veloz tracked the movements of
his potential victims (mostly drug dealers referred to
Veloz by other drug dealers who paid him for protection)
by attaching GPS units to their cars. CW-2 stated that
he had personally observed Veloz monitoring the
movements of his victims on a laptop computer attached
to a large-screen television and a cellular phone in his
home.5 In addition, CW-2 accurately described Veloz as
light-skinned and in his 30's; that he had a black belt in

1

While designated as confidential by the government, at the
hearing it became apparent that the actual identities of the
informants are no secret to counsel involved in the case.
2

Veloz also seeks a hearing pursuant to Franks v. Delaware,
438 U.S. 154, 98 S. Ct. 2674, 57 L. Ed. 2d 667 (1978),
claiming that the agent-affiant omitted material information
regarding the informant's truthfulness in the warrant affidavit.
3

Romero has withdrawn a motion to suppress statements that
he made to a jailhouse informant.

4

While a captive, Manuel Amparo was put on the phone with
an individual later identified as Veloz who threatened to kill
him if he did not arrange the payment of a ransom.

5

In his grand jury testimony in August of 2012, CW-2 testified
that Veloz recruited him for the kidnapping crew in the spring
of 2012, and that he had met with the other crew members at
Veloz's residence approximately three times to plan the July
23 kidnapping.
App. 13

United States v. Veloz
martial arts, numerous martial arts trophies in his
apartment, and had once owned a karate shop in
Lawrence; that he had spent a year in the Middleton Jail
on gun charges; that he lived with his wife and two
young children; and that he owned a beige/gold [**6]
Cadillac CTS. CW-2 also noted that Veloz had a
distinctive tattoo of a tiger face on his right arm.6
Prior to his initial appearance in Boston, CW-2 rode with
agents to 443-447 Andover Street in Lawrence, where
he identified [*310] Apartment #9 as Veloz's
residence.7 A Cadillac sedan and CW-2's personal car
were parked on the street in front of Veloz's home. On
the basis of CW-2's information, on July 25, 2012, FBI
Special Agent John Orlando obtained and executed a
search warrant at Veloz's apartment. The search
recovered two laptops, a tablet computer, two thumb
drives, and seven cellular phones.
On August 2, 2012, FBI Special Agent Kathryn Earle
obtained [**7] a supplemental search warrant for the
contents of the seized devices. On August 6 and 7,
2012, agents downloaded data from the thumb drives
and the cellular phones.8 On August 13, 2012, a
forensic examiner searched and imaged the laptop
computers. Over the following months, agents analyzed
the copied data and determined that one of the laptops
was used in the kidnappings. An email address
contained in the laptop (palomo.1025@gmail.com)9
listed to a Juan Pablo Durarte,10 and a telephone
number (978-876-2897),11 were determined to have
been used in connection with the purchase of a GPS

6

CW-2 stated that Matos ("Boyca") stored the firearms and
paraphernalia used in the kidnappings in his apartment and
physically attached the GPS units to victims' cars.

7

CW-2 also directed agents to 17-19 Tyler Street in Lawrence,
where he indicated that Matos ("Boyca") lived on the second
floor.

8

The Boston FBI office lacked the technical capacity to search
the tablet computer, and sent it to an outside laboratory for
forensic examination.
9

In June and September of 2014, agents also executed
search warrants addressed to Google and Apple for
information associated with this and another email address
discovered on Veloz's laptop. Veloz seeks to suppress the
fruits of these searches as well.
10

The address associated with Juan Pablo Durarte is Matos's
address at 17 Tyler Street in Lawrence.
11

Veloz had also given this [**8] number as his home
telephone when being booked by police.

unit. The laptop also contained GPS satellite images of
the streets in and around Amparo's home.
Also on August 2, 2012, CW-2 was shown a three-ring
binder containing 37 photographs (without any
identifying information) labeled 1-37.12 He accurately
identified photograph 30 as that of Veloz. During his
grand jury testimony, he also accurately identified
photos of Guzman (also known as "Cano"), Wallace,
Reynoso, and Romero. On August 31, CW-2 identified
Matos from an array of 6 photos.
CW-3 also began to cooperate with law enforcement
shortly after the July 23 kidnapping. In August of 2012,
he told the grand jury that he had met Maldonado at a
methadone clinic in 2007 and had begun selling pills
with him, supplied by Veloz, in or about January of
2012. In the spring of 2012, Maldonado approached
CW-3 about participating in a hostage-taking and
introduced CW-3 to Guzman. Maldonado and Guzman
referred to Veloz as "Maestro" because of his role in
orchestrating [**9] the kidnappings. CW-3 also testified
about Veloz's use of GPS devices to track potential
victims. Prior to the July 23 kidnapping, CW-3 met with
Veloz and other crew members at Veloz's apartment
approximately five times. CW-3 accurately described the
exterior and interior of Veloz's residence, and related
that Veloz had purchased a Cadillac with the proceeds
of a prior successful kidnapping. CW-3 also described
meeting with Matos at the Veloz residence, that Matos's
apartment served [*311] as the "stashhouse" for the
operation, and described Matos physically.
On July 30, 2012, CW-3 was shown a loose-leaf binder
containing 36 numbered photographs without identifying
information. He identified photograph 30 as Veloz.
During his grand jury testimony, he accurately identified
photographs of Guzman, Maldonado, and two photos of
Veloz. On August 29, 2012, CW-3 also identified Matos
from an array of 6 photos.
Like CW-2 and CW-3, CW-5 pled guilty to conspiracy to
commit kidnapping and agreed to cooperate with the
government. He told the grand jury in July of 2013 that
he had met Veloz and Romero while they were inmates
at the Middleton Jail in late 2010/early 2011. Veloz
recruited CW-5 and Romero to [**10] join his

12

During or after the July 24 interview, CW-2 was shown a
single Registry of Motor Vehicles photo, also without any
identifying information, which CW-2 correctly identified as
Veloz. CW-2 was also shown a binder containing photographs
1-28, which did not include a photo of Veloz.
App. 14

United States v. Veloz
kidnapping crew. Veloz had explained to CW-5 the use
of GPS units to track potential ransom victims (usually
drug dealers). CW-5 testified that he had either
participated in or had knowledge of seven different
kidnappings carried out by the Veloz crew. For example,
CW-5 admitted to taking part in the kidnapping of a
target named "Majimbe" with Veloz, Romero, and
Matos. CW-5 had observed Matos put a GPS device on
Majimbe's vehicle prior to the kidnapping, and
participated in the remote tracking of Majimbe's car from
Veloz's apartment. CW-5 met with other members of the
crew on multiple occasions at Veloz's residence and
accurately described its interior.
In November of 2012, CW-5 was shown individual
photographs taken from the binder kept by the FBI and
accurately identified two photos of Veloz, as well as
photos of Romero, Matos, Maldonado, Wallace, and
Reynoso. During his grand jury testimony he identified
photos of Veloz and Romero.
DISCUSSION
1. Motions to suppress photographic (mugshot)
identifications by cooperating witnesses of Veloz (#238
), Matos (#270), and Romero (#276-1)
Defendants argue that the conduct of the photographic
identifications was deficient because: (1) [**11] the
agents did not employ a double blind or blinded
procedure; (2) the cooperating witnesses were not told
that they were not required to make an identification;
and (3) were not asked how certain or confident they
were when they did make an identification. Veloz and
Matos also contend that some of the arrays shown were
of an unconstitutionally small size (arrays of 6 photos
were shown to identify Matos, while CW-2 during his
initial interview was shown a single photograph of
Veloz).
While the policy arguments over best practices in
conducting a photographic identification are of interest,
they are of no constitutional import. The arguments are
principally derived from dicta in a Supreme Judicial
Court (SJC) decision, Commonwealth v. Silva-Santiago,
453 Mass. 782, 797, 906 N.E.2d 299 (2009) (while "[w]e
have yet to conclude that an identification procedure is
unnecessarily suggestive unless it is administered by a
law enforcement officer who does not know the identity
of the suspect (double-blind procedure), . . . we
acknowledge that it is the better practice . . . ."). The
SJC's further ruminations on the desirability of
instructing a person being asked to view an array that

the alleged wrongdoer may or may not be depicted, and
asking her at time of the identification [**12] how
certain she is, id. at 797-798, were adopted as
recommended "best practices" by a Study Group
appointed by the SJC to delve into the issue of
misidentifications. See SJC Study Group of Eyewitness
Evidence, Report [*312] and Recommendations to the
Justices (July 23, 2013), at 89-90. While the SJC
appears inclined to adopt most, if not all, of the
recommendations of the Study Group,13 this does not
affect federal practice (although it may ultimately have
persuasive appeal).
The use of photographs for identification purposes in
federal investigations is governed by due process
considerations of fairness. The test to be applied is
whether the methods used by police to elicit an
identification were "so impermissibly suggestive as to
give rise to a very substantial likelihood of
misidentification." Simmons v. United States, 390 U.S.
377, 384, 88 S. Ct. 967, 19 L. Ed. 2d 1247 (1968). It is
generally held that an array of at least six photos (the
suspect and five fillers) is acceptable,14 although there
is no per se rule barring the use [**13] of a single
photo. See Nassar v. Vinzant, 519 F.2d 798, 801 (1st
Cir. 1975); compare United States v. Mears, 614 F.2d
1175, 1177 (8th Cir. 1980) (improper to include
defendant twice in an array of seven photos) with United
States v. Sanchez, 24 F.3d 1259, 1262 (10th Cir. 1994)
("[W]e believe that the number of photographs in an
array is not itself a substantive factor, but instead is a
factor that merely affects the weight given to other
alleged problems or irregularities in an array.").
There is no reason, however, to belabor the issue —
what distinguishes this case is the fact that each of the
cooperating witnesses had prior familiarity with the
person or persons they identified — indeed, they were
literal "partners in crime." It is uniformly held by state
and federal courts, that where a witness is shown to
have had prior familiarity with a defendant, a due
process hearing need not be held, as no amount of

13

The SJC has expressed skepticism regarding one of the
recommendations (sequential viewing), see Commonwealth v.
Walker, 460 Mass. 590, 602, 953 N.E.2d 195 (2011), and has
repeatedly held that the failure to use techniques like blinded
viewing, goes to the weight and not the admissibility of
identification evidence. See id.
14

This also was the minimum number endorsed by the SJC
Study Group. See Report and Recommendations to the
Justices, at 89.
App. 15

United States v. Veloz
police suggestion is likely to have influenced the
witness's identification. See People v. Rodriguez, 79
N.Y.2d 445, 450, 593 N.E.2d 268, 583 N.Y.S.2d 814
(1992) (the "known to one another" exception);
Commonwealth v. Pressley, 390 Mass. 617, 619, 457
N.E.2d 1119 (1983) (a judge need not instruct on the
possibility of good faith mistake where "the parties are
so well known to each other or so closely related that . .
. the identification by the victim is either true or the
victim [**14] is lying."); United States v. Henderson, 320
F.3d 92, 101 (1st Cir. 2003) ("Nor need we dwell too
long on Powers' identification of defendant. There was
evidence from which it could be found that she had
known Henderson going back to 1994."); United States
v. Drougas, 748 F.2d 8, 27 (1st Cir. 1984), holding
modified on other grounds by United States v. Piper, 35
F.3d 611 (1st Cir. 1994) ("As a fellow conspirator in the
smuggle, the government witness certainly had the
opportunity and incentive to accurately identify Ellis.");
see also Mears, 614 F.2d at 1177 (despite improperly
including two photos of defendant in the photo array,
witness's in-court identification of defendant was reliable
because of their prior mutual business dealings).15
2. Motion to suppress search of electronic equipment by
Veloz (#264)
Veloz contends that after seizing his computer, cell
phones, and thumb [*313] drives, the government did
not complete the search of their contents until some 18
months later.16 He contends that the delay was
constitutionally unreasonable, and that the government
violated Fed. R. Crim. P. 41, which places a 14-day time
limit on the return of a warrant. The latter argument is
the easier to dispose of as the procedural requirements
for the return of a warrant under Rule 41 are "basically
ministerial," United States v. Dauphinee, 538 F.2d 1, 3
(1st Cir. 1976), and absent any [**15] showing of
prejudice, "do[] not provide grounds for the suppression
of the evidence obtained pursuant to the warrant."
United States v. Gerald, 5 F.3d 563, 567, 303 U.S. App.
D.C. 311 (D.C. Cir. 1993).
With respect to the former argument, Veloz conflates
the forensic examiner's search of a device — where
data is copied for further review — with the review of the
already seized data. See United States v. Habershaw,
2002 U.S. Dist. LEXIS 8977, 2002 WL 33003434, at *8
15

Moreover, CW-2 accurately identified Veloz by his distinctive
tattoo as well as his photo.

(D. Mass. May 13, 2002) ("Further forensic analysis of
the seized hard drive image does not constitute a
second execution of the warrant or a failure to 'depart
the premises' as defendant claims, any more than would
a review of a file cabinet's worth of seized documents.").
Although reports reflecting on-going analysis of the
seized data were generated in March of 2014, there is
no dispute that the government copied or attempted to
copy the data from the devices almost immediately after
their seizure. "The Fourth Amendment itself contains no
requirements about when the search or seizure is to
occur or the duration." United States v. Syphers, 426
F.3d 461, 469 (1st Cir. 2005) (internal quotation marks
omitted). "A delay in execution of the warrant under
Rule 41 does not render inadmissible evidence seized,
absent a showing of prejudice to the defendants
resulting from the delay. . . . Courts have permitted
some delay in the [**16] execution of search warrants
involving computers because of the complexity of the
search." Id.
Given the impracticalities of conducting a forensic
examination in a person's home or office, the creation of
a mirror image of a suspect computer hard drive for later
analysis has become a common and constitutionally
permissible practice. See United States v. Ganias, 755
F.3d 125, 135-136 (2d Cir. 2014) (collecting cases).
"[C]omputer searches are not, and cannot be subject to
any rigid time limit because they may involve much
more information than an ordinary document search,
more preparation and a greater degree of care in their
execution." United States v. Triumph Capital Grp.,
Inc.,211 F.R.D. 31, 66 (D. Conn. 2002).
Where problems have arisen is in instances in which the
government fails to expeditiously return non-responsive
information found on a seized or mirrored hard drive.
See Ganias, 755 F.3d at 140-141 (suppression called
for where government agents retained computer
documents that were beyond the scope of the original
warrant for almost two-and-a-half years). But, even in
these instances, a rule of reasonableness applies.
Where, as here, the government acted reasonably in
seeking outside forensic expertise, and there is no
allegation that wrongfully seized and later discovered
material of an exculpatory nature was willfully retained,
the on-going off-site [**17] analysis of the contents of
Veloz's hard drives raises no Fourth Amendment or due
process issue.
3. Motion to suppress fruits of search and seizure and
for a Franks hearing by Veloz (#208 and #225)

16

The return of the search warrant was filed on March 12,
2014.
App. 16

United States v. Veloz
(a) Veloz's contentions
Veloz contends that there was no probable cause to
issue the warrant to search his [*314] home. He
maintains that the information provided by CW-2 was
not corroborated in any meaningful sense, that the
evidence of a car belonging to an arrested coconspirator
on a public street near his house was not material, that
the agent's expertise regarding kidnapping techniques
was not connected in any real sense to this case, and
that the agents omitted material information from the
warrant affidavits, notably, that immediately after being
arrested, CW-2 gave false information about his
involvement in the crime.17
(b) Probable cause
Probable cause means "reasonable cause," something
significantly less exacting than "more likely than not" or
"by a preponderance of the evidence." United States v.
Melvin, 596 F.2d 492, 495 (1st Cir. 1979). Probable
cause "merely requires that the facts available to the
officer would 'warrant a man of reasonable caution in
the belief' that certain items may be contraband or
stolen property or useful as evidence of a crime; it does
not demand any showing that such a belief be correct or
more likely true than false." Texas v. Brown, 460 U.S.
730, 742, 103 S. Ct. 1535, 75 L. Ed. 2d 502 (1983)
(plurality opinion) (internal citation omitted). In assessing
probable cause, federal courts are to adhere to the
flexible "totality of the circumstances" test of probable
cause approved by the Supreme Court in Illinois v.
Gates, 462 U.S. 213, 230-231, 103 S. Ct. 2317, 76 L.
Ed. 2d 527 (1983) (stressing that probable cause is a
fluid concept — "not readily, or even usefully, reduced to
a neat set of legal rules"). Whether a warrant in fact
issued on a showing of probable cause is a matter of
law to be determined by the court. Beck v. Ohio, 379
U.S. 89, 96, 85 S. Ct. 223, 13 L. Ed. 2d 142 (1964).
It has long been the rule that probable cause may be
established solely through hearsay information provided
by a confidential informant. In [**19] Gates, the
Supreme Court rejected any "rigid" application of the

17

The government for its part contends that there was
probable cause because the confidential witness's information
revealed highly detailed knowledge of illegal activities and was
therefore self-authenticating, that the information was
corroborated by other information such as the identification of
other coconspirators, the identification of Veloz's home
address, car, wife, and the description [**18] of the use of
GPS units on victims' cars, and by the identification of a
coconspirator's car parked in front of Veloz's home.

"two-pronged" test of an informant's tip drawn from
Aguilar v. Texas, 378 U.S. 108, 84 S. Ct. 1509, 12 L.
Ed. 2d 723 (1964), and Spinelli v. United States, 393
U.S. 410, 89 S. Ct. 584, 21 L. Ed. 2d 637 (1969). Gates
involved an anonymous tip implicating a local couple in
drug trafficking. The officer who prepared the warrant
succeeded in corroborating a number of largely innocent
details and in confirming predictions contained in the tip,
but had no means of establishing the informant's identity
and thus, the basis of his or her knowledge of the
couple's criminal activity. Applying the Aguilar-Spinelli
test, the Illinois Supreme Court found the affidavit
wanting.
The Supreme Court reversed. Conceding that the
Aguilar factors of "veracity," "reliability," and "basis of
knowledge" are "highly relevant," the Court nonetheless
rejected the notion that "these elements should be
understood as entirely separate and independent
requirements to be rigidly exacted in every case."
Gates, 462 U.S. at 230. The Court concluded that
it is wiser to abandon the "two-pronged test"
established by our decisions in Aguilar and Spinelli.
In its place we reaffirm the totality-of-thecircumstances analysis that traditionally has
[*315] informed probable-cause determinations. . .
. The task of the issuing magistrate is [**20] simply
to make a practical, common-sense decision
whether, given all the circumstances set forth in the
affidavit before him, including the "veracity" and
"basis of knowledge" of persons supplying hearsay
information, there is a fair probability that
contraband or evidence of a crime will be found in a
particular place. And the duty of a reviewing court is
simply to ensure that the magistrate had a
"substantial basis for . . . conclud[ing]" that probable
cause existed.
Id. at 238-239.
Although Gates suggests a likely finding of probable
cause even were CW-2 an anonymous informant, that is
simply not the case. Veloz's legal argument, which is
based on the law governing anonymous tips, see Def.'s
Br. at 7, founders on this point. CW-2, far from being
anonymous, was not only known to police — he was in
fact one of Veloz's coconspirators. In United States v.
Harris, 403 U.S. 573, 91 S. Ct. 2075, 29 L. Ed. 2d 723
(1971), Chief Justice Burger, in discussing Jones v.
United States, 362 U.S. 257, 80 S. Ct. 725, 4 L. Ed. 2d
697 (1960), noted that "Jones never suggested that an
averment of previous reliability was necessary," and
App. 17

United States v. Veloz
held that an informant's admissions of his own criminal
involvement — his "declarations against penal interest"
— carried their own indicia of credibility. Harris, 403
U.S. at 581-582, 594. "People do not lightly admit a
crime and place critical evidence in the hands of
the [**21] police in the form of their own admissions."
Id. at 583; see also United States v. Schaefer, 87 F.3d
562, 566 (1st Cir. 1996) ("The fact that an informant's
statements are against his or her own penal interest
adds credibility to the informant's report."); United States
v. Campa, 234 F.3d 733, 738 (1st Cir. 2000) ("Bullon's
own admission of complicity, and the risk of police
retaliation for giving false information, added to the
likelihood of his veracity." (internal citations omitted)).18
(c) The Franks Issue
While a judicial ruling on a motion to suppress is
ordinarily confined to the "four corners" of the affidavit,
there are circumstances in which a defendant may
challenge the truthfulness of statements made by the
affiant. See Franks v. Delaware, 438 U.S. 154, 98 S. Ct.
2674, 57 L. Ed. 2d 667 (1978); cf. United States v.
Southard, 700 F.2d 1, 7 (1st Cir. 1983) (a facially
sufficient affidavit is entitled to a presumption of validity).
To be entitled to a Franks hearing, a defendant must
make a "substantial preliminary showing" that an
affidavit contains intentionally false or recklessly untrue
statements that are material to a finding of probable
cause. Franks, 438 U.S. at 155-156, 170.
[T]he challenger's attack must be more than
conclusory and must be supported by more than a
mere desire to cross-examine. [**22] There must
be allegations of deliberate falsehood or of reckless
disregard for the truth, and those allegations must
be accompanied by an offer of proof. They should
point out specifically the portion of the warrant
affidavit that is claimed to be false; and they should
be accompanied by a statement of supporting
reasons. Affidavits or sworn or otherwise reliable
statements of witnesses should be furnished, or
their absence satisfactorily explained.
[*316] Id. at 171. A showing of simple factual error or
negligent omission is insufficient to trigger a Franks
hearing. See United States v. Monaco, 700 F.2d 577,
580 (10th Cir. 1983); United States v. Baldwin, 691 F.2d

18

Here there is no dispute as to CW-2's "basis of knowledge"
— he claimed to have seen first-hand what he reported. See
United States v. Del Toro Soto, 676 F.2d 13, 19-20 (1st Cir.
1982) (informant watched defendants steal mail).

718, 720 n.1 (5th Cir. 1982); United States v. Tanguay,
787 F.3d 44, 2015 U.S. App. LEXIS 8556, 2015 WL
2445764, at *9 (1st Cir. May 22, 2015).
If a hearing is warranted, the defendant must prove the
knowing falsity or recklessness of the affiant's
statements by a preponderance of the evidence.
Franks, 438 U.S. at 156. If the showing is made, the
offending statement is excised from the affidavit, which
is then reexamined for probable cause. Id. at 171-172;
United States v. Veillette, 778 F.2d 899, 903-904 (1st
Cir. 1985).
The reckless omission of material information from the
affidavit also raises a Franks issue. See United States v.
Rumney, 867 F.2d 714, 720 (1st Cir. 1989); see also
United States v. Hall, 113 F.3d 157, 158 (9th Cir. 1997)
(reckless omission of the "absolutely critical" fact that
the informant had been previously convicted for falsely
reporting a crime); cf. United States v. Atkin, 107 F.3d
1213, 1217 (6th Cir. 1997) ("[A]n affidavit which omits
potentially exculpatory information is less likely to
present a question of [**23] impermissible official
conduct than one which affirmatively includes false
information.").
On the other hand, the omission of a fact that does not
cast doubt on the existence of probable cause is not a
material misrepresentation. United States v. Dennis,
625 F.2d 782, 791 (8th Cir. 1980); see also United
States v. Colkley, 899 F.2d 297, 301 (4th Cir. 1990) (an
omission must be made with the intent to mislead);
United States v. Moscatiello, 771 F.2d 589, 603 (1st Cir.
1985), vacated on other grounds sub. nom. Carter v.
United States, 476 U.S. 1138, 106 S. Ct. 2241, 90 L.
Ed. 2d 688 (1986) (the omission of irrelevant facts is no
basis for suppression); United States v. Reivich, 793
F.2d 957, 962-963 (8th Cir. 1986) (the failure to apprise
the magistrate of the fact that informants had been
promised leniency did not diminish the showing of
probable cause); United States v. Calisto, 838 F.2d 711,
714-716 (3d Cir. 1988) (affiant's failure to disclose that
certain information in the affidavit had been transmitted
by fellow officers did not detract from the showing of
probable cause). There may also be circumstances,
although they would appear rare, in which the failure to
include information not known to the affiant might give
rise to a Franks violation. See Tanguay, 2015 U.S. App.
LEXIS 8556, 2015 WL 2445764, at *8 (asking whether
certain "red flags" about an informant's history of mental
instability might have created "a duty of further inquiry").
Where there is a finding that the affiant intentionally or
recklessly omitted material facts from the affidavit, the
App. 18

United States v. Veloz
reviewing court should determine whether the omitted
information, [**24] had it been included, would have
defeated the finding of probable cause. United States v.
Cole, 807 F.2d 262, 267-268 (1st Cir. 1986).
The Franks hearing is limited to material impeaching the
veracity and care of the affiant. Franks, 438 U.S. at 171.
The credibility of a confidential informant or cooperating
witness is tested by the rules set out in Aguilar, Spinelli,
and Gates, and not by way of a Franks hearing. See
United States v. Carmichael, 489 F.2d 983, 989 (7th Cir.
1973); In re Search Warrant Dated July 4, 1977, 667
F.2d 117, 137, 215 U.S. App. D.C. 74 (D.C. Cir. 1981),
abrogated on other grounds by Horton v. California, 496
U.S. 128, 110 S. Ct. 2301, 110 L. Ed. 2d 112 (1990).
Stated differently, the issue is not whether a nongovernmental informant gave false or misleading
information, but whether the affiant fabricated the
informant, [*317] misrepresented the informant's
statements, or recklessly relied on the informant's
report. See Lawmaster v. United States, 993 F.2d 773,
775 (10th Cir. 1993); cf. Illinois v. Rodriguez, 497 U.S.
177, 185-186, 110 S. Ct. 2793, 111 L. Ed. 2d 148
(1990) ("[W]hat is generally demanded of the many
factual determinations that must be regularly made by
agents of the government . . . is not that they always be
correct, but that they always be reasonable."); compare
People v. Lucente, 116 Ill. 2d 133, 506 N.E.2d 1269,
1277, 107 Ill. Dec. 214 (Ill. 1987) ("The greater the
showing that the informant blatantly lied to the officeraffiant or that the information from the informant is
substantially false, the greater is the likelihood that the
information was not appropriately accepted by the
affiant as truth and the greater the probability that the
affiant in putting [**25] forth such information, exhibited
a reckless disregard for the truth.").
Here, the only potentially material omission advanced
by Veloz is the fact that CW-2, when first arrested, gave
a self-exculpatory and false version of the facts, a
version that he quickly recanted. An experienced
Magistrate Judge would not be surprised to learn that a
defendant-informant had initially denied involvement in a
crime. See Rumney, 867 F.2d at 720 ("Nassoura's
denials of involvement were made, predictably, before
he was confronted with evidence linking him to the
robbery. Once the police gathered enough information
to arrest Nassoura, he changed his story. That the
police chose not to include Nassoura's denials along
with the reason for his recantation is not material to a
finding of probable cause.").
4. Motion to suppress email searches by Veloz (#370)

Veloz contends that the search of his email accounts
hosted Apple and Google servers should be suppressed
as "fruits of the poisonous tree." Because the argument
is premised on the alleged illegal search of his laptop
computer (from which the email addresses were taken),
it fails with the denial of his motion to suppress that
search.19,20
ORDER
For the foregoing reasons, the motions to suppress are
DENIED. The Clerk will set the case for trial.
SO ORDERED.
/s/ Richard G. Stearns
UNITED STATES DISTRICT JUDGE

End of Document

19

Where CW-2's information was authenticated [**26] by the
evidence discovered at Veloz's residence pursuant to the
original search warrant, it is of no consequence that
subsequent warrant affidavits did not indicate that CW-2 may
be bipolar, or may have committed other unrelated bad acts.
See Tanguay, 2015 U.S. App. LEXIS 8556, 2015 WL
2445764, at *5.

20

An additional motion to suppress by Veloz (#210 and #226)
is premised on a typographical error suggesting that searches
of Veloz's home occurred on July 24, 2012 (the day before the
warrant issued) and also on July 25, 2012. The parties do not
dispute that the home was searched but once on July 25.
App. 19

Case 1:12-cr-10264-RGS Document 1074 Filed 11/17/17 Page 1 of 4

Appendix C

App. 20

Case 1:12-cr-10264-RGS Document 1074 Filed 11/17/17 Page 2 of 4

App. 21

Case 1:12-cr-10264-RGS Document 1074 Filed 11/17/17 Page 3 of 4

App. 22

Case 1:12-cr-10264-RGS Document 1074 Filed 11/17/17 Page 4 of 4

App. 23

